           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        THE SOCIAL SECURITY
   ADMINISTRATION’S PROCEDURES
 FOR ADDRESSING EMPLOYEE-RELATED
      ALLEGATIONS IN REGION I


   October 2004   A-01-04-14091




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM

Date:   October 7, 2004                                                      Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Assistant Inspector General
         for Audit

Subject: The Social Security Administration’s Procedures for Addressing Employee-Related
        Allegations in Region I (A-01-04-14091)


        OBJECTIVE
        Our objectives were to evaluate the adequacy of the Social Security Administration’s
        (SSA) policies and procedures in Region I for addressing employee-related allegations,
        determining if SSA complied with these policies and procedures, and determining
        whether SSA referred all employee-related allegations, as appropriate, to the Office of
        the Inspector General (OIG).

        BACKGROUND
        SSA receives various types of allegations related to its programs, the misuse of Social
        Security numbers, and employee conduct. Some examples of employee-related
        allegations include standards of conduct, ethics violations, and theft of Government
        property. SSA receives allegations from a number of sources, including employees,
        OIG, and the general public. Allegations concerning SSA employees are significant
        because of the potential dollar losses to SSA’s programs and the corresponding
        negative public impact. In determining the validity of allegations, SSA is required to
        obtain sufficient evidence to support or remove suspicion that criminal violations may
        have been committed.1 SSA’s procedures state,




        1
            SSA, Program Operations Manual System (POMS), GN 04110.010(A).
Page 2 – Manuel J. Vaz

                Prior to referral to the Office of the Inspector General, Office of
                Investigations Field Division, each potential violation and
                allegation must be developed by the field office, processing
                center, or other SSA office to the point where enough evidence
                has been secured to either remove suspicion or substantiate the
                violation.2

In the Boston Region, employee-related allegations received through the OIG Hotline
are forwarded by OIG to either the Office of the Regional Commissioner or the Center
for Security and Integrity (CSI). Employee-related allegations from all other sources are
controlled by CSI. Cases involving employee misconduct that are not potential criminal
violations are referred to the Regional Office’s Center for Human Resources’ (CHR)
Labor Management Relations staff for adverse actions.

Employee-related allegations that are potential criminal violations must be referred to
the OIG, Office of Investigations (OI) for appropriate action.3 SSA’s procedures require
the Agency to contact OI before initiating any administrative or disciplinary action
against an employee suspected of committing a violation to avoid prejudicing a possible
criminal action against the employee, alert other possible suspects, or cause a suspect
or witness to stop cooperating in the investigation.4 Employee violations include
situations in which an employee is suspected of willfully participating in the planning or
execution of any scheme or other activity under which a financial or other advantage
improperly accrues or could accrue to any person at the expense of the Government.5

In Fiscal Years 2002 and 2003, the Boston Region received 42 employee-related
allegations. Of this amount, 6 allegations were from OIG and 36 allegations were from
other sources. In addition to the 42 allegations, CHR processed 11 adverse actions
involving allegations of employee fraud, security violations, standards of conduct,
misuse of leave, and/or misuse of Government property.

RESULTS OF REVIEW
Our review disclosed that the Boston Regional Office generally (1) addressed
employee-related allegations of mismanagement and (2) referred potential criminal
violations to OIG as required. Of the 42 employee-related allegations and 11 adverse
actions processed by the Boston Regional Office, we identified 8 potential criminal




2
    SSA, POMS, GN 04110.010(B).
3
    SSA, POMS, GN 04112.005(B).
4
    SSA, POMS, GN 04112.010(A)(B).
5
    SSA, POMS, GN 04112.005(D).
Page 3 – Manuel J. Vaz

violations. Our review of the cases showed that SSA contacted OI in all 8 cases.6
Further, our review of the remaining cases showed that SSA had documentation to
show that the allegations could not be substantiated and/or did not involve potential
criminal violations. Additionally, we found that the Regional Office had adequate
procedures in place to control, develop and resolve employee-related allegations.

CONCLUSION
The Boston Regional Office addressed employee-related allegations and referred
potential criminal violations to the OIG.

AGENCY COMMENTS
SSA concurred with the facts presented. (See Appendix C for the full text of SSA’s
comments.)




                                                        S
                                                        Steven L. Schaeffer




6
 SSA, POMS, GN 04112.015 B.2 requires managers to contact the OIG regarding possible employee
criminal violations and that this contact be documented in a confidential memorandum to the appropriate
OI Field Division. Although SSA staff had documentation showing they referred the eight potential
criminal violations to the OIG, the documentation did not consist of written confidential memorandums.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
CHR        Center for Human Resources
CSI        Center for Security and Integrity
FY         Fiscal Year
OI         Office of Investigations
OIG        Office of the Inspector General
POMS       Program Operations Manual System
SSA        Social Security Administration
                                                                             Appendix B

Scope and Methodology
We limited our review to Fiscal Years (FY) 2002 and 2003 information provided by
Region 1 staff.1 This included 6 referrals from the Office of the Inspector General (OIG),
36 employee-related allegations from sources other than the OIG, and 2 potential
criminal violation cases identified from the list of adverse actions processed by the
Center for Human Resources’ (CHR) Labor Management Relations staff. To
accomplish our objectives, we:
    •   Reviewed the applicable Federal laws, regulations and Social Security
        Administration (SSA) policy, including SSA Administrative Instructions Manual
        System and Program Operations Manual System.
    •   Interviewed staff within the Office of the Regional Commissioner, Center for
        Security and Integrity, and CHR in Boston, Massachusetts.
    •   Obtained the database of allegations processed by the OIG during FYs 2002 and
        2003 and identified those listed as employee-related.
    •   Obtained a listing of employee-related allegations from the Office of the Regional
        Commissioner, Center for Security and Integrity.
    •   Reviewed the 11 adverse actions processed by the CHR Labor Management
        Relations staff to identify potential criminal violations that should have been
        referred to the OIG.
    •   Reviewed the supporting documentation and development of evidence for the
        employee-related allegations and adverse actions.

We performed field work in Boston, Massachusetts from March through June 2004. We
determined that the computerized data used were sufficiently reliable to meet our audit
objectives. The entity reviewed was the Boston Regional Office under the Deputy
Commissioner for Operations. We conducted our review in accordance with generally
accepted government auditing standards.




1
 The Center for Human Resources tracks adverse actions by calendar year. Thus, we reviewed adverse
actions processed by the Center for Human Resources for calendar years 2002 and 2003.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      September 14, 2004                                                       Refer To:

To:        Steven L. Schaeffer
           Assistant Inspector General for Audit

From:      Manuel J. Vaz
           Regional Commissioner
           Boston

Subject:   The Social Security Administration’s Procedures for Addressing Employee-Related Allegations
           in Region I (A-01-04-14091)

           I have reviewed the subject draft report and concur with the validity of the facts presented.

           Thank you for the opportunity to comment. Please call me if you wish to further discuss the
           report. The staff contact is Mike Bertrand, 617-565-2870.
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, (617) 565-1765

   David Mazzola, Auditor Manager, (617) 565-1807


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at
(410) 965-3218. Refer to Common Identification Number A-01-04-14091.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
